                                                 UNITED STATES
                               SECURITIES AND EXCHANGE COMMISSION
                                            WASHINGTON, D.C. 20549




        OFFICE OF
    INSPECTOR GENERAL


                                           MEMORANDUM

                                            September 30, 2014


To:              Jeffery Heslop, Chief Operating Officer, Office of the Chief Operating Officer

From:            Carl W. Hoecker, Inspector General, Office of Inspector General

Subject:         Analysis of the SEC’s Compliance with Conference Approval and Reporting
                 Requirements for Fiscal Year 2014

Executive Summary

The Office of Inspector General (OIG) analyzed the U.S. Securities and Exchange
Commission’s (SEC) reports of SEC-sponsored conferences1 for fiscal year (FY) 2014. Our
objective was to determine whether the SEC complied with conference reporting requirements
established by Division E, Title VII, Section 742(c) of the Consolidated Appropriations Act,
2014 (P.L. 113-76), and with agency policy for approving conferences that meet certain cost
thresholds. We met with personnel from the Office of Financial Management (OFM) and
analyzed supporting documents for the 19 conferences reported to the OIG as of
September 30, 2014, and found that the SEC complied with P.L. 113-76 and agency policy.2

Results

Compliance with P.L. 113-76. P.L. 113-76 requires Federal agencies to report to their
Inspector General conferences that cost more than $20,000. Specifically, within 15 days of the
date each conference was held, agencies must report the conference date, location, and
number of employees that attended. As shown in the table below, during FY 2014, the SEC
reported to the OIG 19 conferences. For each of the 19 conferences, the SEC reported all
required information within 15 days of the conference date.

Compliance with Agency Policy. The SEC’s OFM Reference Guide, Chapter 06.08, Budget
Execution: SEC Conference Planning and Approval (July 2013) establishes the agency’s
policy for approving SEC-sponsored conferences. The policy states that the Chief Financial
Officer has approval authority for conferences that exceed $2,000 in estimated total costs but

1
 SEC Administrative Regulation (SECR) 5-4, Conference Authorization, November 18, 2013, defines a
conference as “a meeting, retreat, seminar, symposium or event that involves attendee travel.” According to the
SECR, the term “conference” also includes training activities that are considered to be conferences under 5 CFR
410.404.
2
  We performed this analysis from July through September 2014. The analysis was limited in that we did not
follow generally accepted government auditing standards, as this was not an audit. We also did not test related
internal controls but only identified controls in the conference reporting and approval processes.
cost less than or equal to $100,000. The Chief Operating Officer has approval authority if the
estimated total costs are above $100,000 and less than or equal to $499,999. Conferences
that cost over $499,999 must be approved by the SEC Chair.

Fifteen of the 19 conferences reported to the OIG in FY 2014 cost less than $100,000 and
were approved by the Chief Financial Officer, as required. The remaining four conferences
cost more than $100,000 but less than $499,999 and were approved by the Chief Operating
Officer, as required.

                          TABLE. SEC-SPONSORED CONFERENCES IN FY 2014
                                               (as of September 30, 2014)

                                                                                           No. of
                                        Conference           Conference         No. of    Days to    Conference
  No.      Conference Name
                                           Date               Location        Attendees   Report        Cost
                                                                                          to OIG
         2014 Office of Compliance
              Inspections and
           Examinations (OCIE)                             SEC Headquarters                           Less than or
   1                                       1/30/14                               42          7
           Compliance Outreach                             Washington, D.C.                         equal to $100,000
         Program National Seminar
                Conference
         2014 Office of Compliance
              Inspections and
           Examinations (OCIE)                             SEC Headquarters                           Less than or
   2                                   2/10/14 - 2/14/14                         59          5
           National Examination                            Washington, D.C.                         equal to $100,000
          Program (NEP) Training
                Conference
            FY 2014 Division of
        Enforcement's Market Abuse                         SEC Headquarters                           Less than or
   3                                   3/26/14 - 3/28/14                         46          2
           Strategic Planning and                          Washington, D.C.                         equal to $100,000
              Training Meeting
         FY 2014 Annual Northwest
                                                                                                      Less than or
   4    Exam Summit and Securities     4/30/14 - 5/1/14      Seattle, WA         19         12
                                                                                                    equal to $100,000
               Conference
            FY 2014 Division of
            Enforcement Asset                              SEC Headquarters                           Less than or
   5                                    5/1/14 - 5/2/14                          73          6
        Management Unit Leadership                         Washington, D.C.                         equal to $100,000
         and Strategy Conference
            FY 2014 Division of
           Enforcement and NITA                            SEC Headquarters                           Less than or
   6                                   5/12/14 - 5/16/14                         56          6
            Testimony Training                             Washington, D.C.                         equal to $100,000
                Conference
            FY 2014 Office of                                                                          Greater than
        Compliance Inspections and                         SEC Headquarters                         $100,000 but less
   7                                   6/9/14 - 6/13/14                          41          3
        Examination's New Examiner                         Washington, D.C.                          than or equal to
                 Training                                                                               $499,999
            FY 2014 Division of
           Enforcement Division
                                                           SEC Headquarters                           Less than or
   8         Complex Financial         6/26/14 - 6/27/14                         43          3
                                                           Washington, D.C.                         equal to $100,000
          Instruments Unit (CFIU)
            Training Conference
           FY 2014 Southeastern                                                                       Less than or
   9                                   6/26/14 - 6/27/14      Atlanta, GA        79          6
           Securities Conference                                                                    equal to $100,000
           2014 OCIE Trading Risk
                                                           SEC Headquarters                           Less than or
   10    Identification Group (TRIG)   7/10/14 - 7/11/14                         66          3
                                                           Washington, D.C.                         equal to $100,000
                  Conference
                                                                                                       Greater than
         2014 OCIE National Exam
                                                           SEC Headquarters                         $100,000 but less
   11      Sponsored Leadership        7/31/14 - 8/1/14                          205         5
                                                           Washington, D.C.                          than or equal to
               Conference
                                                                                                        $499,999

                                                            2
                                                                                                No. of
                                             Conference           Conference         No. of    Days to    Conference
  No.          Conference Name
                                                Date               Location        Attendees   Report        Cost
                                                                                               to OIG
               38th Annual Southwest                                                                       Less than or
      12                                        8/19/14              Dallas, TX       85          2
               Securities Conference                                                                     equal to $100,000
              Division of Enforcement
                                                                SEC Headquarters                           Less than or
      13    Foreign Corrupt Practices Act   9/8/14 - 9/10/14                          259        12
                                                                Washington, D.C.                         equal to $100,000
            National Training Conference
              Division of Enforcement
                                                                                                           Less than or
      14        Microcap Task Force         9/9/14 - 9/10/14      New York, NY        30         12
                                                                                                         equal to $100,000
            National Training Conference
                FY 2014 Division of
                Enforcement Chief                               SEC Headquarters                           Less than or
      15                                    9/11/14 - 9/12/14                         70         10
            Accountant National Training                        Washington, D.C.                         equal to $100,000
                   Conference
                                                                                                            Greater than
                FY 2014 Division of
                                                                SEC Headquarters                         $100,000 but less
      16     Enforcement National Trial     9/11/14 - 9/12/14                         110        10
                                                                Washington, D.C.                          than or equal to
            Lawyers Training Conference
                                                                                                             $499,999
              Municipal Securities and
                                                                SEC Headquarters                           Less than or
      17      Public Pensions National      9/15/14 - 9/16/14                         30          8
                                                                Washington, D.C.                         equal to $100,000
                Training Conference
                                                                                                            Greater than
            Division of Enforcement 2014
                                                                SEC Headquarters                         $100,000 but less
      18          Chief Enforcement         9/17/14 - 9/19/14                         190         3
                                                                Washington, D.C.                          than or equal to
                     Conference
                                                                                                             $499,999
              Division of Enforcement
             Office of Technical Support                        SEC Headquarters                           Less than or
      19                                    9/23/14 - 9/25/14                         24          4
             Litigation Support Training                        Washington, D.C.                         equal to $100,000
                      Conference
  Source: SEC OFM.


What’s Next

In FY 2015, we plan to further analyze the SEC’s FY 2014 conference expenditures to include
assessing the agency’s compliance with additional reporting requirements for conferences
costing more than $100,000 as outlined in Division E, Title VII, Sections 742(a) and (b) of
P.L. 113-76. We will also determine whether the SEC complied with Federal and agency
requirements for planning and conducting conferences to ensure conference-related spending
was legal, reasonable, and necessary.

We appreciate the courtesies and cooperation extended to us during this analysis. If you have
questions, please contact Rebecca Sharek, Deputy Inspector General for Audits, Evaluations,
and Special Projects.


cc:        Mary Jo White, Chair
           Erica Y. Williams, Deputy Chief of Staff, Office of the Chair
           Luis A. Aguilar, Commissioner
           Paul Gumagay, Counsel, Office of Commissioner Aguilar
           Daniel M. Gallagher, Commissioner
           Benjamin Brown, Counsel, Office of Commissioner Gallagher
           Michael S. Piwowar, Commissioner
           Jaime Klima, Counsel, Office of Commissioner Piwowar
           Kara M. Stein, Commissioner
                                                                 3
Robert Peak, Advisor to the Commissioner, Office of Commissioner Stein
Anne K. Small, General Counsel, Office of the General Counsel
Timothy Henseler, Director, Office of Legislative and Intergovernmental Affairs
John J. Nester, Director, Office of Public Affairs
Kenneth Johnson, Chief Financial Officer, Office of Financial Management
Darlene L. Pryor, Management and Program Analyst, Office of the Chief
  Operating Officer




                                        4
